             California Student Aid Commission’s 

 Administration of the Federal Family Education Loan Program 

                 Federal and Operating Funds 





                                 FINAL AUDIT REPORT 





                                            ED-OIG/A09-C0013 

                                               March 2003 





Our mission is to promote the efficiency,                        U.S. Department of Education
effectiveness, and integrity of the                              Office of Inspector General
Department’s programs and operations                             Sacramento, California
                                          Notice

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
     Determinations of corrective action to be taken will be made by the appropriate
                           Department of Education officials.

  In accordance with Freedom of Information Act (5 U.S.C. §552), reports issued by the
Office of Inspector General are available, if requested, to members of the press and general
 public to the extent information contained therein is not subject to exemptions in the Act.
                          UNITED STATES DEPARTMENT OF EDUCATION 

                                            OFFICE OF INSPECTOR GENERAL 


                                                   501 I Street, Room 9-200
                                                Sacramento, California 95814
                                            Central Office Number: (916) 930-2388
                                                FAX Number: (916) 930-2390


                                                       March 27,2003

MEMORANDUM


TO: 	           Ms. Theresa S. Shaw
                Chief Operating Officer
                Federal Student Aid


FROM:           Gloria Pilotti
                Regional Inspector General for Audit

SUBJECT:        FINAL AUDIT REPORT
                California Student Aid Commission's Administration ofthe Federal Family
                Education Loan Program Federal and Operating Fund
                ED-OIGIA09-COO13

Attached is our subject report presenting our findings and recommendations resulting from our 

audit of the California Student Aid Commission. 


In accordance with the Department's Audit Resolution Directive, you have been designated as 

the action official responsible for the resolution of the findings and recommendations in this 

report. 


If you have any questions, please contact me at (916) 930-2399. 


Please refer to the above control number in all correspondence relating to this report. 


Attachment 



Electronic cc: 	Kristie Hansen, Financial Partners Channel, FSA
                Ralph Arosemena, Audit Liaison Officer, FSA




           Our mission is to promote the efficiency, effectiveness, and integrity ofthe Department's programs and operations



                                                                                                           I
                                    &B.1L
                                           TABLE OF CONTENTS 


                                                                                                                                 Page

EXECUTIVE SUMMARY ...........................................................................................................1 


AUDIT RESULTS .........................................................................................................................3 


     FINDING NO. 1 – CSAC Improperly Used Its Reserve Funds for $7.4 Million 

                     of Accrued Administrative Expenses ....................................................3 



     FINDING NO. 2 – CSAC Improperly Used Its Reserve Funds for $4.5 Million of 

                     Purchases That Were Used for Administering the 

                     FFEL Program After September 30, 1998 ...........................................6 



     FINDING NO. 3 – CSAC Improperly Used About $1 Million of the Federal Fund 

                     for Supplemental Preclaims Assistance Activities .............................11 



     FINDING NO. 4 – CSAC’s Procedures Delayed Deposits of Federal Payments 

                     Into the Federal Fund...........................................................................12 



     FINDING NO. 5 – CSAC Did Not Pay Usage Fees to the Federal Fund .........................14 



OTHER MATTERS ....................................................................................................................16 


BACKGROUND ..........................................................................................................................17 


AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................17 


STATEMENT ON MANAGEMENT CONTROLS.................................................................19 


ATTACHMENT 1- Additional Equipment and Other Assets Purchased and 

              Paid From Reserve Funds in September 1998 .......................................20 


ATTACHMENT 2- CSAC Comments on the Draft Report....................................................21 

ED-OIG/A09-C0013	                                                                          Page 1 of 21




                                 EXECUTIVE SUMMARY


The California Student Aid Commission (CSAC) did not fully comply with the Higher Education
Act of 1965 (HEA), as amended, and applicable Federal regulations in its establishment of the
Federal and Operating Funds and its subsequent administration of the Federal Fund for the Federal
Family Education Loan (FFEL) program. We concluded that CSAC—

         Improperly used its reserve funds for $7.4 million of accrued administrative expenses.
          Federal regulations required that expenses be deducted from the reserve fund upon their
          payment, without any accrual for accounting purposes. Since the administrative expenses
          had not been paid from reserve funds by September 30, 1998, CSAC should have
          classified the amounts as expenses of the Operating Fund.

         Improperly used $4.5 million of reserve funds for September 1998 purchases that were
          used to administer the FFEL program after September 30, 1998. The HEA and Federal
          regulations state that such costs are costs of the Operating Fund. We also concluded that
          EDFUND did not use sound business practices when making the purchases.

         Improperly used about $1 million of the Federal Fund for the cost of supplemental
          preclaims assistance activities. Under the HEA and Federal regulations, supplemental
          preclaims assistance costs are not an authorized use of the Federal Fund.

         Delayed deposits of Federal payments into the Federal Fund. As a result, the Federal
          Fund did not realize interest earnings of about $264,000 while the Federal payments were
          in bank accounts held by CSAC and its auxiliary organization, EDFUND. The HEA and
          Federal regulations require guaranty agencies to invest funds transferred to the Federal
          Fund and exercise the level of care required of a fiduciary charged with the duty of
          investing the money of others.

         Did not deposit fees in the Federal Fund for the net fair value of its use of Federal assets.
          Federal regulations require that the usage fees be paid to the Federal Fund not less
          frequently than quarterly. The Financial Partners Channel of the U.S. Department of
          Education, Federal Student Aid (FSA), 1 previously reported this finding.

We recommended that the Chief Operating Officer for Federal Student Aid require CSAC to
reimburse the Federal Fund for the above amounts plus related interest and take corrective action
to ensure that the Federal payments are deposited in the Federal Fund within one business day
and usage fees are paid to the Federal Fund at least quarterly.

The OTHER MATTERS section of the report provides information on other areas that came to
our attention during the review concerning (1) untimely transfer of reserve funds to the Federal
Fund, (2) delayed deposit of interest earned on the Federal share of collections into the Federal
Fund and (3) use of the collection account for purposes other than collections on defaulted loans.



1
    Prior to March 6, 2002, FSA was known as Student Financial Assistance.
ED-OIG/A09-C0013                                                                    Page 2 of 21


In its comments to the draft report, CSAC stated that new procedures were implemented to
ensure Federal payments are deposited into the Federal Fund within one day of receipt and that a
cash transfer was made to the Federal Fund for the lost interest. CSAC did not agree with our
other findings and recommendations. CSAC’s comments to the draft report are summarized at
the end of each finding and included in their entirety as Attachment 2.
ED-OIG/A09-C0013                                                                                  Page 3 of 21




                                         AUDIT RESULTS 



The objective of the audit was to determine whether CSAC complied with the HEA and Federal
regulations governing the establishment and operations of the Federal and Operating Funds.
Specifically, we evaluated the (1) initial establishment of the two funds, (2) sources and uses of
the funds, and (3) ownership of nonliquid assets and usage fees paid. We concluded that CSAC
did not fully comply with the applicable HEA provisions and Federal regulations when it
established the Federal and Operating Funds. Also, CSAC did not fully comply with the HEA
provisions and Federal regulations pertinent to the sources and uses of the funds and the payment
of usage fees to the Federal Fund except CSAC did properly identify the ownership of fixed
assets.


FINDING NO. 1 – CSAC Improperly Used Its Reserve Funds for $7.4 Million
                of Accrued Administrative Expenses

When determining the reserve fund balance on September 30, 1998, CSAC reduced the balance
by $7.4 million for EDFUND and other FFEL-related administrative expenses that were accrued,
but not yet paid from reserve funds. Federal regulations required that expenses be deducted from
the reserve fund upon their payment, without any accrual for accounting purposes. Since these
administrative expenses had not been paid from reserve funds by September 30, 1998, CSAC
should not have included the amounts in determining the reserve fund balance and should have
classified the amounts as expenses of the Operating Fund.

FFEL Program Administrative Expenses Not Paid
From Reserve Funds By September 30, 1998
Must Be Classified As Expenses of the Operating Fund

The Higher Education Amendments of 1998, enacted on October 7, 1998, required each guaranty
agency to establish a Federal Fund and an Operating Fund and deposit all funds, securities, and
other liquid assets contained in its reserve fund into the Federal Fund. In its Dear Guaranty
Agency Letter 99-G-316, dated January 27, 1999, the Department’s Financial Partners Channel
reiterated the requirement—

          The Secretary has decided that all of the funds, securities, and other liquid assets
          in the agency’s reserve fund as of September 30, 1998, as described in 34 CFR
          682.410(a) , must be deposited into the Federal Fund when it is established.

The regulation at 34 C.F.R. § 682.410(a)(3)2 specifies the accounting basis to be used for the
reserve fund.

2
    All regulatory citations are to the Code of Federal Regulations revised as of July 1, 2000.
ED-OIG/A09-C0013                                                                             Page 4 of 21



        Accounting basis. Except as approved by the Secretary, a guaranty agency
        . . . shall deduct the items listed in paragraph (a)(2) of this section from its reserve
        fund upon their payment, without any accrual for accounting purposes.

Thus, only expenses paid from reserve funds prior to October 1, 1998, may be considered
expenses of the reserve fund. All other expenses must be assigned to either the guaranty
agency’s Federal Fund or Operating Fund.

As amended, HEA § 422A(d) limits the uses of Federal Fund assets.

        [T]he Federal Fund may only be used by a guaranty agency—
           (1)    to pay lender claims . . . ; and
           (2)    to pay into the Agency Operating Fund . . . a default aversion fee . . . .

HEA § 422B(d)(1) states that guaranty agencies must use the Operating Fund for other costs of
administering the FFEL program.

        Funds in the Operating Fund shall be used for application processing, loan
        disbursement, enrollment and repayment status management, default aversion
        activities . . . default collection activities, school and lender training, financial aid
        awareness and related outreach activities, compliance monitoring, and other
        student financial aid related activities, as selected by the guaranty agency.

FFEL program costs not listed in the HEA § 422A(d) and paid after September 30, 1998, must
be classified as expenses of the Operating Fund.

CSAC Used the Reserve Fund After September 30, 1998
for FFEL Program Operating Expenses

To determine its reserve fund balance as of September 30, 1998, CSAC combined amounts
derived from the financial records of CSAC and EDFUND.3 Since CSAC used a modified accrual
accounting basis and EDFUND used an accrual accounting basis for its records, the combined
amounts included accrued revenue and accrued expenses. Accrued revenue represented revenue
earned, but not yet received. Accrued expenses represented expenses incurred, but not yet paid.

Our review of the payable and accrued4 amounts identified the following amounts paid from the
reserve fund after September 30, 1998, which should have been classified as costs of the
Operating Fund:



3
  At this time, EDFUND only held amounts provided from CSAC’s reserve funds. When EDFUND was
created, CSAC provided EDFUND with an initial advance of $20 million from the reserve funds. Each
month, EDFUND submitted invoices to CSAC for all incurred expenses. CSAC used state warrants issued
from the reserve funds to pay the EDFUND invoices.
4
  Vacation accrual represents earned but unused vacation pay. Retirement insurance accrual is a recorded
liability for EDFUND’s retirement plan for certain direct hire employees. Salary and other accruals
represent estimates of expenses that have been incurred but not yet paid.
ED-OIG/A09-C0013	                                                                         Page 5 of 21


               CSAC collection agency fees payable                     $3,433,637
               EDFUND vacation accruals                                 1,214,770
               EDFUND retirement insurance accrual                        800,116
               EDFUND salary accruals                                     603,319
               EDFUND vendor and payroll accounts payable                 253,418
               Other CSAC payables                                        267,919
               Other EDFUND accruals                                      874,484
               Total                                                   $7,447,663

By including these accrued expenses in determining the reserve fund balance on
September 30, 1998, CSAC understated the reserve fund balance by $7,447,663, and as a result,
the amount transferred to the Federal Fund was understated by the same amount. We concluded
that the accrued revenues and other accrued expenses that CSAC included in determining the
reserve fund balance did not impact the current balance in the Federal Fund since the related
revenues and expenses would have been appropriate sources and uses of the Federal Fund after
September 30, 1998.5

Recommendation

1.1 	   We recommend that the Chief Operating Officer for Federal Student Aid require CSAC
        to return the $7,447,663 to the Federal Fund plus $1,533,5976 of imputed interest from
        October 1, 1998 through December 31, 2002. Also, return the interest earned on the
        $7,447,663 from January 1, 2003, through the date it was transferred to the Federal Fund.

CSAC Comments

In its response to the draft report, CSAC stated that it was acting under specific and appropriate
guidance from the Department in its use of accrual accounting and requested that the finding be
removed from the report. CSAC stated that the Department instructed guaranty agencies during
an August 1998 training conference that the reserve fund balance reported on the Form 1130
(currently called Form 2000) should equal the amounts on the guaranty agency’s general ledger
on an accrual basis. CSAC noted that 34 C.F.R. 682.410(a)(3) allowed the Secretary to approve
a different basis other than cash and concluded that the Department specifically approved a
different accounting basis by explicitly directing guaranty agencies to use accrual accounting for
the period ending September 30, 1998.

CSAC stated that 34 C.F.R. 682.419(f)(1) instructed the guaranty agencies to use the accrual
basis of accounting for the Federal and Operating Funds required by the HEA Amendments of
1998. CSAC concluded that “[b]ecause the reauthorization act [HEA Amendments of 1998]
implemented accrual accounting as the official accounting basis, it was clearly logical that the
September 30, 1998 year-end report be on this same basis.” CSAC also stated “if CSAC failed
to utilize this consistent method of accounting, a reconciliation tracing the transition from a one

5
  The accrued revenues were for interest receivable on reserve funds and amounts due from the Federal
government for defaulted loan purchases, reinsurance, supplemental preclaims assistance, and
administrative expense allowance. The other accrued expenses were amounts due to the Federal
government for lender claims, Federal share of collections, and loan repurchases.
6
 All imputed interest amounts in the report were calculated using the California State Controller’s
Surplus Money Investment Fund Apportionment Yield Rate. We used the period ending June 30, 2002
rate through December 31, 2002 because the December 31, 2002 rate was not yet posted.
ED-OIG/A09-C0013                                                                            Page 6 of 21


fund to a two fund structure would be virtually impossible.” Lastly, CSAC noted that generally
accepted accounting principles approve the use of accrual accounting since it more accurately
matches revenues and expensese to the accounting period.

OIG Response

Our finding and recommendation remain unchanged. CSAC was required to establish the
Federal Fund in accordance with the HEA and applicable regulations. The HEA required each
guaranty agency to deposit “all funds, securities, and other liquid assets” of its reserve fund into
the Federal Fund, and the cited regulation specified that deductions from the reserve fund will be
made without accrual for accounting purposes. The Department's January 1998 edition of the
published instructions for the Form 1130 were consistent with the HEA and regulations. The
instructions, which had an expiration date of September 30, 1998, stated—

        The amounts reported . . . must be on a cash basis for, or through, the end of the
        Federal fiscal year, September 30, as required in each item. This must be done
        regardless of the agency's method and period of accounting used for its annual
        audited financial statement and other financial reports.

CSAC provided no documentation from the August 1998 training conference indicating that the
Department modified its published instructions for the Form 1130 covering the period ended
September 30, 1998.

The accounting basis required for the Federal Fund is not relevant since the regulations specified
the accounting basis for the predecessor reserve funds and the HEA required transfer of all liquid
assets. Also, CSAC’s statement that a consistent accounting method was needed to reconcile
reserve fund transfers to the Federal and Operating Funds does not have merit. As we reported
in the AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY section, we used an alternative
metholodogy to confirm that the reserve fund assets were transferred since we were unable to
identify from CSAC records the transfers to the Federal Fund that comprised the reserve fund
assets at September 30, 1998.

The fact that generally accepted accounting principles require the use of accrual accounting for
financial statement reporting purposes is not relevant. CSAC was required to adhere to the HEA
and applicable regulations when transferring reserve fund assets to the Federal Fund.



FINDING NO. 2 – CSAC Improperly Used Its Reserve Funds for $4.5 Million
                of Purchases That Were Used for Administering the
                FFEL Program After September 30, 1998

CSAC used reserve fund assets to pay EDFUND for about $5.1 million of equipment, software,
and equipment-related services purchased in September 1998.7 Our review of three EDFUND
purchase agreements, which accounted for $4.5 million of the $5.1 million in purchases, found
that the purchased equipment, software, and services were for administration of the

7
 Typically, monthly purchases for equipment and other fixed assets were significantly less: $50,847 in
August 1998, $22,383 in October 1998, and $50,970 in November 1998.
ED-OIG/A09-C0013                                                                          Page 7 of 21


FFEL program after September 30, 1998. Thus, the costs were not a necessary use of the reserve
fund assets. We also concluded that EDFUND did not use sound business practices when making
the purchases. Based on actions taken, which we describe in this finding, we concluded that
EDFUND timed the execution of the purchases in order to issue checks to vendors before
September 30, 1998. After that date, payments for such purchases would be made from the
Operating Fund. Given the timing of the purchases and the fact that the purchased equipment,
software, and services were for administering the FFEL program after September 30, 1998,
CSAC should have identified the $4.5 million as costs of the Operating Fund.

Guaranty Agencies Must Ensure That
Costs Are Necessary and Reasonable

Federal regulations required that guaranty agencies use reserve fund assets for necessary and
reasonable costs. The regulations at 34 C.F.R. § 682.410(a)(2) state—

       [a] guaranty agency . . . shall use the assets of the reserve fund to pay only
       . . . [c]osts that are reasonable, as defined under § 682.410(a)(11)(iii) , and that are
       ordinary and necessary for the agency to fulfill its responsibilities under the
       HEA . . . Those costs must be . . . [n]et of all applicable credits.

The regulations at 34 C.F.R. § 682.410(a)(11)(iii) define the term “reasonable costs” and state
that the guaranty agency has fiduciary responsibility for establishing that costs are reasonable,
including that the agency used prudent business practices.

       Reasonable cost means a cost that, in its nature and amount, does not exceed that
       which would be incurred by a prudent person under the circumstances prevailing
       at the time the decision was made to incur the cost. The burden of proof is upon
       the guaranty agency, as a fiduciary under its agreements with the Secretary,
       to establish that costs are reasonable. In determining reasonableness of a given
       cost, consideration must be given to—
           (A) Whether the cost is of a type generally recognized as ordinary and
                necessary for the proper and efficient performance and administration of
                the guaranty agency’s responsibilities under the HEA;
           (B) The restraints or requirements imposed by factors such as sound business
                practices, arms-length bargaining, Federal, State, and other laws and
                regulations, and the terms and conditions of the guaranty agency’s
                agreements with the Secretary; and
           (C) Market prices of comparable goods or services. 

       [emphasis added.] 


EDFUND’s Purchases Were Not Needed or Used to
Administer the FFEL Program Before October 1, 1998

The three purchase agreements covered equipment, software, and services related to EDFUND’s
Financial Aid Solutions and Technology (FAST) project. The primary purpose of the FAST
project was to migrate the CSAC’s Student Loan Portfolio and EDFUND’s Business Support
system from Financial Aid Processing System (FAPS) to an augmented version of a system
owned by the Great Lakes Higher Education Guaranty Corporation (Great Lakes). The FAST
project included revamping EDFUND’s servers, processors, and printers to accommodate the new
     ED-OIG/A09-C0013                                                                           Page 8 of 21


     system.8 The FAST project was scheduled to be completed over a 24-month period. EDFUND
     reported the following project accomplishments as of September 30, 1998: EDFUND signed a
     contract with Great Lakes and developed the project organization structure, project schedule,
     requirements definition, and implementation business plans.

     As shown in the table below, the vendors delivered the equipment for the FAST project just one
     day before September 30, 1998, and for two purchases the equipment was delivered to a
     warehouse because EDFUND facilities were not yet ready to receive the equipment. Also, except
     for a few days, the service periods specified in the contracts were for periods after
     September 30, 1998. For example, purchase agreement E-97-114 included the cost of 20 million
     printing impressions for printers delivered to EDFUND facilities on September 29, 1998.

                                                                            Date                       Service
 Purchase
                                                          Solicited     Signed          Vendor          Period
Agreement                     Purchase
                                                          Vendor       Purchase        Delivered      Covered By
 Number               (Total Cost - $4,521,911)
                                                           Quotes     Agreement       Equipment       Agreement
             Server, software, maintenance services,
             training and certification of EDFUND                                     9/29/98 to
                                                           8/21/98       9/3/98                          9/4/98
E-97-107     personnel, and installation and                                         warehouse (b)
                                                                                                        to 9/3/99
             configuration services (Cost $3,268,222)

             Two servers, software, maintenance
                                                                                      9/30/98 to
             services, training, and installation and                   9/21/98
E-97-110                                                     (a)                     warehouse (b)       9/29/98
             configuration services (Cost $334,710)
                                                                                                       to 12/31/98
             Two printers with servers, consulting
                                                                                       9/29/98 to
             services, maintenance services, and           9/25/98      9/29/98                         9/29/98
E-97-114                                                                                EDFUND
             20 million impressions (Cost $918,979)                                                    to 9/30/99
                                                                                         facility

(a) The EDFUND Request for Contract Services was dated 9/18/98. EDFUND internal memorandum dated 9/24/98,
    states that three vendor quotes were compared, but EDFUND-provided documentation did not show when the
    quotes were solicited or received. Based on our review of provided documents, we concluded that the purchase
    agreement may have been signed prior to obtaining the vendor quotes.
(b) Shipped/delivered to warehouse space leased by vendor in accordance with terms specified in the agreement.


     By including the cost of purchases used to administer the FFEL program after
     September 30, 1998 in determining the reserve fund balance, CSAC understated the reserve fund
     balance by $4,521,911. As a result, the amount transferred to the Federal Fund was understated
     by the same amount. Attachment 1 of this report contains a list of an additional $571,809 of
     EDFUND purchases made and paid with reserve funds during September 1998, which CSAC also
     included in determining the reserve fund balance.




     8
      EDFUND and Great Lakes signed a Memorandum of Understanding and Master Development Agreement
     on January 12, 1998 establishing the terms of their relationship. This agreement was superseded by a
     contract, effective September 23, 1998. Subsequently, EDFUND halted the FAST project and terminated
     its agreement with Great Lakes.
ED-OIG/A09-C0013	                                                                      Page 9 of 21


EDFUND Did Not Use Sound Business Practices
When Making the Purchases

We concluded that EDFUND complied with its own purchasing procedures, but that CSAC did
not meet its fiduciary responsibility to ensure that costs are reasonable, including that EDFUND
used prudent business practices. Our review of the three purchase orders found that EDFUND:
      Purchased and accepted delivery of equipment for the FAST project prior to having its
       facility ready for installation of the equipment. Also, there did not appear to be an urgent
       need for the purchases since EDFUND had only completed the contract and planning as of
       September 30, 1998.
      Included unnecessary rush delivery conditions and warehouse storage in its request for
       bids. The three bid requests specified delivery of the products by September 30, 1998,
       and two contracts included the agreement for insured warehouse storage until EDFUND’s
       facility was ready for installation of the equipment. The equipment received under
       purchase agreement E-97-107 was installed at EDFUND’s facility in February 1999, about
       five months after the vendor delivered the equipment to the leased warehouse space. The
       equipment received under purchase agreement E-97-110 was delivered to EDFUND’s
       facility on October 28, 1998, about one month after its receipt at the warehouse.

      Established limited time frames for vendors to submit bids. For example, an urgent
       request for bids for the equipment that was purchased under agreement number E-97-114
       was sent to selected vendors on September 25, 1998 with firm bids due by 5:00 PM of the
       same day.

      Expedited payments to vendors, but did not take advantage of offered cash discounts.
       EDFUND issued checks to vendors on September 30, 1998 for the three purchases. The
       vendor for two purchases offered 0.5% discounts if the invoice was paid within five days
       from the invoice date. EDFUND paid one invoice within the 5-day period, but did not
       reduce the amount by the $1,562 offered discount. For the other invoice, which offered a
       discount of $15,122, EDFUND paid the invoice one day after the discount period.

      Had no plans at the end of June 1998 to purchase the $4.5 million of equipment, software
       and equipment-related services before October 1, 1998. While the CSAC-approved
       budget for the period October 1, 1997 through September 30, 1998 included about
       $11.4 million for the FAST project, EDFUND’s budget forecast, as of June 30, 1998,
       projected that about $1.8 million would be expended on the FAST project for the year.

From the above actions, we concluded that EDFUND timed the execution of the purchase
agreements, deliveries, and payments for the purchased equipment and services in order to use
reserve fund assets for the purchases rather than to ensure that EDFUND obtained necessary
equipment when needed and at the best price.

In fact, the equipment purchased under the three purchase agreements actually exceeded
EDFUND’s needs because the FAST project was eventually discontinued. In a letter to the
Department, dated December 12, 2000, CSAC stated, “In the cases of the server and printers,
[CSAC] did not utilize the equipment for the intended purpose, which was converting to an
in-house loan processing system, making the equipment worth less to the organization than the
ED-OIG/A09-C0013	                                                                          Page 10 of 21


book value states. Given the current uses of the equipment, CSAC/ EDFUND would be able to
run the system just as efficiently with a server costing a fraction of the book value.”

Recommendations

We recommend that the Chief Operating Officer for Federal Student Aid require CSAC to—

2.1 	   Return $4,521,911 to the Federal Fund for the cost of the three purchase agreements plus
        $931,137 of imputed interest from October 1, 1998 through December 31, 2002. Also,
        return the interest earned on the $4,521,911 from January 1, 2003, through the date it was
        transferred to the Federal Fund.

2.2     	Return $571,809 9 and the related imputed interest to the Federal Fund for the other
         equipment purchases made in September 1998, or submit documentation to FSA showing
         that the purchases were necessary for administering the FFEL program prior to
         October 1, 1998 and that sound business practices were used in making the purchases.

CSAC Comments

CSAC requested that the finding be removed from the report. CSAC stated “[w]hile the OIG
may disagree with the business decision that was made [to purchase the equipment and services
in September 1998], that is not a sufficient basis for disallowing the expenditures.” CSAC stated
that the procurement process began well before September 1998 and that the purchases were
consistent with standard business practices and accounting standards as reviewed by its
independent accounting firm. CSAC stated “in the period immediately preceding and then in
September 1998, CSAC was functioning with the best information available at the time on a
project that had an aggressive completion time line and one that was fully authorized and
approved.”

OIG Response

Our finding and recommendations remain unchanged. CSAC’s comments did not fully address
our basis for disallowing the expenditures. Our primary basis for recommending that the Federal
Fund be reimbursed for the three EDFUND purchases was that the purchased equipment,
software, and services were for administration of the FFEL program after September 30, 1998,
and as such the purchases were not a necessary use of reserve funds. CSAC should have
identified the purchases as costs of the Operating Fund.

We acknowledged in the finding that EDFUND complied with its own purchasing procedures.
However, from its actions, we concluded that EDFUND timed the execution of the purchase
agreements, deliveries, and payments for the purchased equipment and service in order to use
reserve fund assets for the purchases rather than to ensure the EDFUND obtained necessary
equipment when needed and at the best price.



9
 The amount to be returned to the Federal Fund may be higher than the $571,809 identified from
CSAC’s fixed asset list since that amount may not include maintenance, training, and other service costs,
which may have also been paid with reserve funds.
ED-OIG/A09-C0013	                                                                      Page 11 of 21




FINDING NO. 3 – CSAC Improperly Used About $1 Million of the Federal
                Fund for Supplemental Preclaims Assistance Activities

CSAC used $1,016,489 from the Federal Fund to pay costs of supplemental preclaims assistance
(SPA) activities.10 The HEA § 422A(d) and the regulations at 34 C.F.R. § 682.419(c) , which are
cited in Finding No. 1, do not list SPA costs as an authorized use of the Federal Fund.

CSAC improperly concluded that the Federal Fund could be used for the cost of SPA activities
since the HEA Amendments of 1998 required guaranty agencies to deposit Federal payments for
SPA activities in the Federal Fund. SPA was collection assistance provided to lenders by
guaranty agencies or their contractors that was designed to encourage borrowers to begin or
resume payment of their loans. Prior to the enactment of the Higher Education Amendments of
1998, the Federal Government paid guaranty agencies $50 for each borrower account that was
subject to preclaims assistance and not submitted later as a default claim by the lender. While
the HEA § 422A(c)(4) required guaranty agencies to deposit into the Federal Fund any Federal
payments for SPA activities performed prior to the enactment of the HEA Amendments, the
HEA did not authorize the use of the Federal Fund for the related collection assistance costs that
were not paid from the reserve fund by September 30, 1998. Also, the Secretary had not
authorized the use of the Federal Fund for this purpose.

Recommendation

3.1 	   We recommend that the Chief Operating Officer for Federal Student Aid require
        CSAC to return $1,016,489 to the Federal Fund plus $172,225 of imputed interest
        through December 31, 2002. Also, return the interest earned on the $1,016,489 from
        January 1, 2003 through the date it was transferred to the Federal Fund.

CSAC Comments

CSAC requested that the finding be removed from the report. CSAC believed that the
Department’s intent was to consider preclaims assistance costs on borrower accounts that were
assigned to contractors for SPA activities prior to October 1, 1998, as an acceptable use of the
Federal Fund. CSAC stated that the Department previously recognized the appropriateness of
matching SPA revenue with related expenses in the regulation at 34 C.F.R. § 682.410. CSAC
also referred to a “Question and Answer” document that advised guaranty agencies to use the
Federal Fund for such preclaims assistance costs. CSAC stated that the document was provided
to the Department for review and the Department’s failure to reply was interpreted as implied
consent to all items discussed in the document. In addition, CSAC noted that the matching of
revenues and expenses is in accordance generally accepted accounting principles.

Lastly, CSAC stated that it could have recorded the accrued SPA revenue and preclaims
assistance expenses in the reserve fund on September 30, 1998, which would have the same
impact on the Federal Fund as the actions taken, i.e. paying the preclaims assistance expenses
from the Federal Fund.
10
  CSAC did not include the $1,016,489 as an accrued expense when it determined the reserve fund
balance as of September 30, 1998.
ED-OIG/A09-C0013                                                                     Page 12 of 21


OIG Response

Our finding and recommendation remain unchanged. The HEA and regulations do not list
preclaims assistance costs as an authorized use of the Federal Fund. The regulations cited in
CSAC’s comments contain no reference to matching SPA revenues with related expenses.
According to the transmittal letter provided with the “Question and Answer” document, the
document reflects the efforts of representatives from the Consumer Bankers Association, the
Education Finance Council, the National Council of Higher Education Loan Programs, the
Student Loan Servicing Alliance and Sallie Mae. The fact that the Department did not respond
to this document does not mean the Department has given implied consent to items presented in
the document. As we mention previously, generally accepted accounting principles for financial
statement reporting purposes are not relevant. CSAC must adhere to the HEA and applicable
regulations when using assets of the Federal Fund.



FINDING NO. 4 – CSAC’s Procedures Delayed Deposits of Federal Payments
                Into the Federal Fund

CSAC did not deposit Federal payments directly into the Federal Fund. CSAC received Federal
payments for reinsurance claims, administrative cost allowance, and supplemental preclaims
assistance by electronic fund transfer (EFT), which were initially deposited in an EDFUND bank
account. Under its current procedures, EDFUND issues a check to CSAC for the EFT amount.
CSAC deposits the EDFUND check in a State bank account and then transfers the EFT amount to
the Federal Fund.11

The HEA § 422A (b) requires that “[f]unds transferred to the Federal Fund shall be invested in
obligations issued or guaranteed by the United States or a State, or in other similarly low-risk
securities….” The HEA § 422A (c) lists the amounts that must be deposited into the Federal
Fund, which includes Federal payments received from the Secretary for reinsurance claims,
administrative cost allowance, and supplemental preclaims assistance:

       After the establishment of the Federal Fund, a guaranty agency shall deposit into
       the Federal Fund—
               1. All amounts received from the Secretary as payment of reinsurance on
           loans…
              4. All amounts received from the Secretary as payment for supplemental
           preclaims activity performed prior to the date of enactment of this section;
               5. 70 percent of amounts received after such date of enactment from the
           Secretary as payment for administrative cost allowance for loans upon which
           insurance was issued prior to such date of enactment….



11
   During the period December 1998 through November 1999, CSAC deposited the EDFUND check in its
bank account, transferred the EFT amount from its bank account to the Operating Fund, and then
transferred the reinsurance amount from the Operating Fund to the Federal Fund.
ED-OIG/A09-C0013	                                                                        Page 13 of 21


Under the requirements for administering the Federal Fund, in 34 C.F.R. § 682.419(a),“…The
guaranty agency must exercise the level of care required of a fiduciary charged with the duty of
protecting, investing, and administering the money of others.”

CSAC’s procedures delayed deposits of Federal payment into the Federal Fund. From
December 1998 through November 1999, transfers to the Federal Fund were an average of six
days after the EFT date for the reinsurance claims and administrative cost allowance and an
average of 36 days for the supplemental preclaims assistance. After November 1999, CSAC no
longer transferred EFT payments to the Operating Fund before transferring amounts to the
Federal Fund. While the revised procedures decreased the delays, the transfers to the Federal
Fund from December 1999 through September 2002 were still an average of two days after the
EFT date.

The Federal Fund did not realize interest earnings while the Federal payments were held in the
EDFUND and CSAC bank accounts. We calculated that the Federal Fund would have earned an
additional $264,141 in interest earnings during the period from December 1998 through
September 2002, if EFT amounts had been promptly deposited into the Federal Fund.12

Recommendations

We recommend that the Chief Operating Officer for Federal Student Aid require CSAC to—

4.1 	   Implement procedures that ensure that EFT payments are deposited into the Federal Fund
        within one business day of their receipt.

4.2 	   Reimburse the Federal Fund for the $264,141 of interest earnings lost during the period
        December 1998 through September 2002 and any additional earnings lost subsequent to
        that period.

CSAC Comments

CSAC concurred with the finding and recommendations. CSAC stated that new procedures were
implemented in September 2002, to ensure deposits to the Federal Fund are processed within one
business day of receipt. CSAC also stated that $264,141 was transferred to the Federal Fund on
January 13, 2003, for lost interest earnings.




12
  For the period from December 1998 through November 1999, we allowed two business days from the
EFT date for the funds to be deposited in the Federal Fund. During this period, CSAC needed to identify
the EFT amount allocable to the Federal Fund and the Operating Fund. From December 1999 to
September 2002, we allowed one business day since the EFTs only included amounts to be deposited in
the Federal Fund.
ED-OIG/A09-C0013                                                                           Page 14 of 21



FINDING NO. 5 – CSAC Did Not Pay Usage Fees to the Federal Fund

CSAC and EDFUND used nonliquid assets purchased with Federal reserve funds in the
performance of the guaranty agency’s activities. CSAC did not deposit in the Federal Fund the
net fair value of its use of the assets (usage fees). This finding was previously reported by FSA’s
Financial Partners Channel in a program review report, dated October 22, 2001.

The regulations at 34 C.F.R. §682.420 (c)(1)(i), which became effective on July 1, 2000, require
guaranty agencies to deposit such usage fees in the Federal Fund.

        If a guaranty agency uses the Federal portion of a nonliquid asset in the
        performance of its guaranty activities (other than an intangible or intellectual
        property asset or a tangible asset of nominal value), the agency must promptly
        deposit into the Federal Fund an amount representing the net fair value of the use
        of the asset.

The regulations at 34 C.F.R. §682.420 (c)(2) require that the usage fees be paid to the Federal
Fund not less frequently than quarterly.

Instead of paying usage fees, CSAC proposed buying the Federal assets. In a letter to FSA’s
Financial Partners Channel, dated December 12, 2000, CSAC proposed to buy all Federal assets
with an original purchase cost of $50,000 or more. CSAC concluded that “any item purchased
for less than $50,000 would have experienced substantial depreciation and therefore would
currently be valued at only a nominal amount.”13 CSAC identified 16 Federal assets with a
purchase cost of $50,000 or more. CSAC offered $113,500 (one-tenth of the $1,135,000 book
value) to buy the 16 Federal assets, which had a combined original purchase cost of
$6,262,610.14

In its program review report, Financial Partners Channel informed CSAC that, until the
purchase of assets is transacted, usage fees must be paid beginning with the quarter ending
September 30, 2000, and instructed CSAC to provide documentation showing the methods used
to calculate the usage fee. In its response to the program review report, CSAC informed
Financial Partners Channel that it had made a “good faith offer for the purchase of the non-liquid
assets” and deposited $113,500 in an interest bearing account pending FSA’s consideration of
CSAC’s offer.



13
   CSAC’s audited financial statements for the period ending June 30, 2000 reported equipment and
software with a purchase cost of $8,212,736. Of this amount, CSAC identified equipment with purchase
costs of $50,000 or more totalling $6,262,610. The remaining $1,950,126 included 19 vehicles purchased
in August 1997 for about $18,000 each, and 7 vehicles purchased between May and July 1998 for
amounts ranging from about $18,000 to $38,500.
14
  In its letter, CSAC noted that four technology-based items (a voice response system, two printers, and a
server) accounted for $5,266,951 of the $6,262,610 original purchase cost and that since these items “rely
on the use of technology that has since been significantly updated and improved, the resale value
represents only a small fraction of the current book value.”
ED-OIG/A09-C0013	                                                                       Page 15 of 21


The CSAC offer to purchase the assets does not release CSAC from the obligation to pay usage
fees. Until CSAC and the Financial Partners Channel conclude the sale of the assets, CSAC is
required by the regulations to pay usage fees to the Federal Fund.

Recommendations

We recommend that the Chief Operating Officer for Federal Student Aid require CSAC to—

5.1 	   Deposit in the Federal Fund an amount representing the net fair value of the use of the
        assets for the period from July 1, 2000 to current, including related interest for the late
        payment. (Excluding the purchases questioned in Finding No. 2, CSAC records show
        that the Federal nonliquid assets had an original purchase cost collectively of
        $2,927,949).

5.2 	   Implement procedures that ensure usage fees are paid to the Federal Fund at least
        quarterly.


CSAC Comments

CSAC stated that it has not yet received a response from the Department concerning its offer.
CSAC stated that it continues to hold the offered funds for the purchase of the assets in an
interest-bearing account pending the outcome of discussions between CSAC and the Department.

OIG Response

Our recommendations remain unchanged. The regulations require that CSAC pay usage fees to
the Federal Fund starting July 1, 2000.
ED-OIG/A09-C0013                                                                     Page 16 of 21



                                  OTHER MATTERS



Transfer of Funds to Federal Fund Was Not Completed Timely. The HEA § 422 required that
each guaranty agency, within 60 days of enactment of the HEA Amendments of 1998, establish a
Federal Fund and deposit all of the funds, securities, and other liquid assets of its reserve fund
into the Federal Fund. The deadline for this action was December 6, 1998. CSAC did not
transfer all funds from the reserve fund into the Federal Fund when it established the Federal
Fund on December 2, 1998. The transfers were made from December 1998 to June 1999. The
original reserve fund was eventually closed on June 23, 1999.

Also, CSAC continued to record accounting transactions in the reserve fund after establishment
of the Federal and Operating Funds. Thus, transfers from the reserve fund to the Federal Fund
included the revenues and expenditures prior to and after October 1, 1998. As discussed in the
AUDIT OBJECTIVE, SCOPE, AND METHODOLGY section of the report, we were unable to
identify the individual transfers to the Federal Fund that comprised the reserve fund balance as of
September 30, 1998. That section describes the alternative approach that we used to confirm that
the reserve fund assets determined by CSAC were transferred to the Federal Fund. This
alternative approach provide us with an acceptable level of assurance that reserve fund assets,
except for those funds identified in the AUDIT RESULTS section, were transferred to the
Federal Fund.

Investment Earnings on the Federal Share of Collections Not Deposited in Federal Fund Timely.
The regulations at 34 C.F.R. §682.419(b)(6) state that a guaranty agency is required to deposit
into its Federal Fund all funds received on loans (loan collections) for which a lender claim has
been paid within 48 hours of receipt of those funds, minus any portion that the agency is
authorized to deposit into the Operating Fund. In its program review report, dated October 22,
2001, FSA’s Financial Partners Channel reported that CSAC had calculated, but not transferred
to the Federal Fund, the interest earnings on the Federal share of loan collections received from
October 1998 through August 2000. On August 9, 2002, FSA signed a settlement agreement
with the guaranty agencies that divided the investment earnings between the Federal Fund and
Operating Fund. On September 6, 2002, CSAC deposited $618,693 into the Federal Fund,
which based on CSAC’s calculations, represented the appropriate interest earnings.

Collections Account Not Used Solely for Collections. Dear Guaranty Agency Director letter
G-00-328 issued July 2000, provided guaranty agencies with an option to deposit the Federal
share of collections into a separate agency-controlled account. The letter stipulated that the
“account may only be used to hold collections and disburse the proper shares to the Federal Fund
and Operating [F]und.” CSAC selected this option and used an EDFUND account to hold
collections. However, EDFUND also used the account for electronic fund transfers from the
Department for loan processing issuance fees, account maintenance fees, and 1189 Form
reimbursements for reinsurance claims. In addition, EDFUND held $1,186,585 of accrued
interest on the Federal share of loan collections received from October 1998 through August
2000 and the $113,500 “good faith” offer for the purchase of the nonliquid assets in the account.
While EDFUND maintained records identifying the balances and interest earnings allocable to the
various amounts, CSAC should follow the guidance in the Dear Guaranty Agency Director letter
and instruct EDFUND to use the account solely for collections.
ED-OIG/A09-C0013                                                                     Page 17 of 21




                                     BACKGROUND 


The Higher Education Amendments of 1998, enacted on October 7, 1998, required each guaranty
agency to establish a Federal Fund and an Operating Fund. The final date for establishing these
funds was December 6, 1998. The guaranty agencies were to transfer all funds, securities and
other liquid assets of the guaranty agency’s FFEL program reserve fund to the Federal Fund,
which is the property of the Federal Government. The HEA required guaranty agencies to
deposit revenue from specific sources into the Federal Fund and defined the uses of Federal Fund
assets. The HEA as amended, also specified the deposits to be made into the Operating Fund
and the general uses of Operating Fund assets. Except for funds transferred from the Federal
Fund, the Operating Fund is the property of the guaranty agency. If the Operating Fund contains
funds transferred from the Federal Fund, the Operating Fund assets may be used only as
permitted by the regulations.

The California State Legislature created the CSAC in 1955. CSAC is the state agency
responsible for administering financial aid programs including FFEL program, the state-funded
CAL-Grant program, and other state-funded postsecondary education programs for students
attending public and private universities, colleges, and vocational schools in California. On
January 2, 1997, CSAC founded EDFUND, a non-profit corporation, as its auxiliary organization
to provide operational and administrative services relating to the FFEL program. The main
offices for CSAC and EDFUND are located in Rancho Cordova, California.




        AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY 



The objective of the audit was to determine whether CSAC complied with the HEA and Federal
regulations governing the establishment and operations of the Federal and Operating Funds.
Specifically, we evaluated the (1) initial establishment of the two funds, (2) sources and uses of
the funds, and (3) ownership of nonliquid assets and usage fees paid.
We gained an understanding of the applicable HEA provisions and Federal regulations, various
State reports, and relevant CSAC and EDFUND procedures. We reviewed relevant FSA Dear
Colleague Letters, FSA Dear Guaranty Agency Director Letters, and correspondence between
CSAC and FSA. We reviewed CSAC’s audited financial statements prepared by its independent
public accountant and findings reported in the California statewide single audit reports for the
periods July 1, 1997 through June 30, 2000 prepared by the California Bureau of State Audits.
We interviewed the auditors from the California Bureau of State Audits who performed the
California statewide single audit for the year ended June 30, 1999. We also contacted the
independent public accountant that conducted the CSAC’s financial statement audit for the year
ended June 30, 1999. We reviewed FSA’s Financial Partners Channel report, dated
October 22, 2001, on its program review of CSAC conducted during June 11-15, 2001 and
report, dated August 14, 1998 conducted during January 26 through February 6, 1998. We
interviewed various CSAC and EDFUND personnel and Financial Partners Channel staff. We
ED-OIG/A09-C0013                                                                    Page 18 of 21


reviewed CSAC’s cost allocation plans for fiscal years 1999 and 2000 for reasonableness and
compliance with Office of Management and Budget Circular A-87.

To evaluate compliance with the HEA and Federal regulations governing the establishment of
the Federal and Operating Funds, we reviewed CSAC’s procedures used to set up the funds. We
confirmed CSAC’s general ledger trial balance at September 30, 1998. We reviewed CSAC’s
worksheets and related documentation for determining the reserve fund balance of $233,983,566
as of September 30, 1998. To meet our audit objective, we used an alternative methodology to
confirm that the reserve fund balance was transferred since we were unable to identify from
CSAC records the transfers to the Federal Fund that comprised the reserve fund balance at
September 30, 1998. Instead, we calculated the Federal Fund balance as of June 30, 1999 using
CSAC-provided revenue and expenditure schedules and compared the calculated balance to the
Federal Fund balance shown in CSAC’s audited financial statements for June 30, 1999. Based
on the comparison, we concluded that CSAC had transferred the $233,983,566 to the Federal
Fund.

To evaluate the sources and uses of the Federal Fund and Operating Fund, we analyzed
transactions recorded for the State Guaranteed Loan Reserve Fund (reserve funds), the Federal
Student Loan Reserve Fund (Federal Fund) , and the Student Loan Operating Fund (Operating
Fund). We compared transactions recorded in various months from July 1998 through June 2000
to identify unusual transactions. We traced expenditures to supporting documentation for 27
transactions that were judgmentally selected based on our trend analyses. We performed trend
analyses to identify large or unusual transactions within expenditure categories and between time
periods.

To confirm that CSAC had identified all nonliquid Federal Fund assets, we reviewed CSAC’s
schedule of nonliquid assets, audited financial statements, trial balance of general ledger
accounts, and building leases. We reviewed correspondence between FSA and CSAC regarding
CSAC’s proposal to purchase nonliquid Federal Fund assets.

In its program review report, dated October 22, 2001, FSA’s Financial Partners Channel reported
that CSAC had not deposited collections on FFELs into the Federal Fund within the required
48-hour period. To confirm that CSAC took corrective action, we reviewed the transfers of the
Federal share of collections from EDFUND to the Federal Fund for February 2002.

To achieve our audit objective, we relied on standard reports from EDFUND’s Financial Aid
Processing System. We also used standard reports and electronic data from the State
Controller’s Office, State Treasury, and CALSTARs (California State Accounting and Reporting
System). Our assessment of the reliability of the data was limited to confirming the data to
supporting documentation for the transactions reviewed in our audit work and obtaining
assurances in CSAC’s management representation letter of the propriety of the data provided.
Based on these tests and assurances, we concluded that the data were sufficiently reliable for use
in meeting our objective.

We conducted our fieldwork from February 11, 2002, through October 2, 2002. The fieldwork
was primarily performed at CSAC’s and EDFUND’s offices in Rancho Cordova, California. A
pre-exit conference and exit conference were held at CSAC’s office in Rancho Cordova on
October 2, 2002 and November 1, 2002, respectively. We performed our audit in accordance
with generally accepted government auditing standards appropriate to the scope of review
described above.
ED-OIG/A09-C0013                                                                     Page 19 of 21




            STATEMENT ON MANAGEMENT CONTROLS 


As part of our audit, we made an assessment of CSAC’s and EDFUND’s management control
structures, policies, procedures, and practices applicable to CSAC’s administration of the FFEL
program. The purpose of our assessment was to assess the level of control risk, that is, the risk
that material errors, irregularities, or illegal acts may occur. We performed the control risk
assessment to assist us in determining the nature, extent, and timing of the substantive tests
needed to accomplish our audit objectives.

To make our assessment, we identified significant controls and classified them into the following
categories:
     Establishment of the Federal and Operating Funds
     Sources and Uses of the Federal and Operating Funds
     Ownership of fixed assets and usage fees
Due to inherent limitations, a study and evaluation made for the limited purpose described above
would not necessarily disclose all material weaknesses in the control structure. However, we
identified weaknesses in CSAC’s procedures used to establish the funds and CSAC’s and
EDFUND’s controls over the sources and uses of the funds. Also, we found that CSAC had not
established procedures to pay usage fees on a quarterly basis. We describe the weaknesses in the
AUDIT RESULTS and the OTHER MATTERS sections of the report.
ED-OIG/A09-C0013                                                                 Page 20 of 21


                                  ATTACHMENT 1
                   Additional Equipment and Other Assets 

          Purchased and Paid From Reserve Funds in September 1998 

In addition to the purchases listed in Finding No. 2, we identified the following equipment and
software from CSAC’s fixed asset list that were purchased by EDFUND and paid from the reserve
fund in September 1998:

                                                                           Purchase Date
       Equipment                  Description                  Cost          Shown on
                                                                           Equipment List
   Computer              Dell Power Edge                       $  20,138     9/30/1998
   Computer              Xerox                                    24,994     9/30/1998
   Copier                Konica 2330                               6,924     9/24/1998
   Copier                Konica 7040                               9,980     9/24/1998
   Copier                Konica 7150                              15,409     9/24/1998
   Copier                Konica 7150                              15,409     9/24/1998
   Copier                Konica 7033                               9,117     9/24/1998
   Copier                Konica 7033                               9,117     9/24/1998
   Copier                Konica 7033                               9,117     9/28/1998
   Copier                Konica 7033                               8,555     9/30/1998
   Copier                Konica 7033                              12,674     9/30/1998
   Printer               IBM Line                                 10,205     9/30/1998
   Printer               IBM Line                                 10,205     9/30/1998
   Printer               Xerox Color                              15,958     9/30/1998
   Projector             Video DLX 650                             7,520     9/30/1998
   Server                Digital AS 1000                           9,021     9/30/1998
   Server                CD600/60X                                93,440     9/29/1998
   Server Rack           ---                                      14,481     9/30/1998
   Software              HP Open Interface                         6,569     9/30/1998
   Software              Heat                                     10,770     9/30/1998
   Tape Drive            Procom 7000                              26,476     9/30/1998
   Video Conferencing    Pictel                                   29,774     9/30/1998
   Video Conferencing    Pictel                                   29,507     9/30/1998
   Video Conferencing    Pictel                                   77,453     9/30/1998
   Video Conferencing    Pictel                                   88,996     9/30/1998
   Total                                                        $571,809


The above amounts may not include maintenance, training, and other service costs, which may
have also been paid with reserve funds in September 1998.
ED-OIG/A09-C0013                                     Page 21 of 21




                       ATTACHMENT 2 



               CSAC Comments on the Draft Report 

                  CALIFORNIA STUDENT AID COMMISSION 

                                       OFFICE OF THE EXECUTIVE DIRECTOR




March 06, 2003




Gloria Pilotti 

Regional Inspector General for Audit 

U.S. Department of Education 

Office of Inspector General 

501 I Street, Suite 9-200 

Sacramento, CA 95814 



Subject: Response to OIG Draft Audit Report A09-C0013


Dear Ms. Pilotti:

Attached is the California Student Aid Commission's response to the Draft Audit Report
issued January 22, 2003. This audit was focused on the Commission's administration of
the Federal Family Education Loan Program Federal and Operating Funds.

We would like to thank you for extending the deadline for us to submit our response.

The Commission and EDFUND are dedicated to compliance with HEA provisions and 

Federal regulations regarding the use of the Operating Funds. 


If you have any questions or need further clarification to our responses, please do not 

hesitate to contact Cheryl Lenz at (916) 526-6474. 


Sincerely,


~~
JaCqUel~~ r
          Tsang 	
Chief Deputy Director



C: 	Becky Stiliing/EDFUND 

    Pat Veloso/EDFUND 





   MAILING ADDRESS:   P.O. Box 419026 STREET ADDRESS: 10834 International Drive Rancho Cordova, CA 95741-9026
                             TEL 916/526-8999 FAX 916/526-8033 WEB SITE www.csac.ca.gov
OIG Response
ED-0IG/A09-C0013
G. Pilotti
March 6, 2003



FINDING NO.1 - CSAC Improperly Used It's Reserve Funds for $7.4 Million of Accrued
Administrative Expenses

CSAC Response
As noted during the audit process and in preliminary potential finding discussions on this
topic, CSAC uses accrual accounting as the basis for maintaining the financial records of
the student loan operating fund and the federal fund. This basis has been employed at
the instruction of the Department of Education (Department). Although the OIG audit
report references section 34 CFR 682.410 where cash basis accounting is discussed for
the one fund structure, the Department has provided subsequent instruction requiring
accrual accounting and reporting in the context of the current two fund structure.

On August 24th and 25th , 1998, the Department held a guaranty agency training
conference in Washington D.C. As part of that training conference the Department
clarified the reporting requirements for the monthly 1189 and annual 1130 federal
reports. Section F of the annual 1130 was then the financial statement portion of the
report (currently called the Form 2000, annual section) where the balance sheet and
income statement data was reported for the fiscal year. When asked, as part of that
training, how the Department wanted the reserve fund balance to be determined, the
training instruction specified that the data on this financial report should equal the
amounts on the guaranty agency's general ledger on an accrual basis for the fiscal year
being reported. In accordance with that instruction, the September 30, 1998 reserve
fund balance was accounted for and reported by CSAC using accrual accounting.

We note that 34 CFR 682.41 0(a)(3) does allow the Secretary to approve a different
accounting basis other than cash. By explicitly directing guaranty agencies to use
accrual accounting for the period ending September 30, 1998, the Department was
specifically approving a different accounting basis. This was clearly within the
Secretary's authority and CSAC complied with that instruction.

Additionally, the Higher Education Amendments of 1998, enacted on October 7, 1998,
required each guaranty agency to establish a Federal Fund and an Operating Fund.
Regulation 34 CFR 682.419(f)(1) instructs the use of the accrual basis of accounting for
the maintenance of these funds. Because the reauthorization act implemented accrual
accounting as the official accounting basis, it was clearly logical that the September 30,
1998 year-end report be on this same basis. We note that if CSAC failed to utilize this
consistent method of accounting, a reconciliation tracing the transition from a one fund to
a two fund structure would be virtually impossible. Accrual accounting is the approved
generally accepted accounting principle since it is an accounting basis that more
accurately matches revenues and expenses to the accounting period they relate.

Based on the above, CSAC was acting under the specific and appropriate guidance from
the Department in its use of accrual accounting and we request this finding be removed
from the audit report.




                                             1
OIG Response
ED-0IG/A09-C0013
G. Pilotti
March 6, 2003



FINDING NO.2 - CSAC Improperly Used Its Reserve Funds for $4.5 Million of
Purchases That Were Used for Administering the FFEL Program After September 30,
1998

CSAC Response
CSAC disagrees that the purchases referenced in this issue were not reasonable or
necessary at the time the decision was made. Prior to committing to any of the
purchases in question, our technology division spent many research hours investigating
which products would best support our needs. With due deliberation and in periods
preceding the actual purchases, both the ED FUND Board and CSAC Commission
approved the purchases as part of a larger project. In most cases, the procurement
process began well before September of 1998 although the purchases concluded at the
end of September.

The purchases were consistent with standard business practices and accounting
standards as reviewed by our independent accounting firm.

At the time of these purchases, CSAC was in the midst of an accelerated project with
Great Lakes Higher Education Guaranty Corporation (the FAST project) to transition to a
new system for housing the student loan portfolio data. This project had a very
aggressive timeline attributable in part to a mandate by the Department, citing the
current system as significantly deficient. Unfortunately, not long after the asset
purchases, the joint project with Great Lakes reached an impasse and the relationship
was subsequently disbanded. As a result, well after September 1998, CSAC
reassessed its development options and then sought and obtained the Department's
approval to upgrade the current system to meet the Department's requirements rather
than transition to a new system.

Had CSAC known the FAST project would not be completed as planned, the assets
would not have been purchased at that time. However, in the period immediately
preceding and then in September 1998, CSAC was functioning with the best information
available at the time on a project that had an aggressive completion time line and one
that was fully authorized and approved. While the OIG may disagree with the business
decision that was made, that is not a sufficient basis for disallowing the expenditures.
Therefore, we request this finding be removed from the report.

FINDING NO.3 - CSAC Improperly Used About $1 Million of the Federal Fund for
Supplemental Preclaims Assistance Activities

CSAC Response
Section 422A(c)(4) states that, after the establishment of the Federal Fund, all amounts
received from the Secretary as payments for supplemental preclaims activity (SPA) must
be deposited into the Federal Fund. The SPA process was such that an account was
not eligible for SPA payment from the Department until 150 days after the lender
requested SPA assistance and the lender did not file for claim payment during that time.
Therefore, SPA assistance requested prior to October 1, 1998 could not be paid by the



                                            2
OIGResponse
ED-0IG/A09-C0013
G. Pilotti
March 6, 2003



Department until the required timeframes elapsed and then only on those accounts
where lenders had not filed for claim payment.

CSAC outsourced its SPA activity to an external vendor. Vendor payments for SPA
work were not made until the account qualified for SPA payment from the Department.
Therefore, actual SPA expenses incurred in generating SPA revenues were unknown
until the SPA cycle was complete.

The Department recognized the appropriateness of matching the SPA revenue against
the expense incurred to produce that revenue identified in 34 CFR 682.410 where both
are authorized sources and uses of funds.

Although 34 CFR 682.419 does not specifically address SPA expenses from
aSSignments made prior to October 1, 1998 as an acceptable use of Federal Fund
monies, CSAC believes that this was the Department's intent. 34 CFR 682.419(c)(9)
authorizes "any other amounts authorized or directed by the Secretary." Matching
expenses to the revenues they produce in the fund benefiting by such revenues is
consistent with prior SPA treatment by the Department and in accordance with generally
accepted accounting principles.

This specific SPA expense treatment was also addressed in an NCHELP "Question and
Answer" formally addressed to Pam Moran on December 2, 1998. That question and
answer document was developed and submitted for the Department's review and
concurrence as part of the Department's reauthorization implementation task force
process. Failure to reply on that matter (and others) was interpreted by the
reauthorization task force that developed the document as consent of all items
discussed. As the Department is well aware, when no response was received offering
document changes or disapproval, NCHELP subsequently distributed the question and
answer document as guidance for all guaranty agencies to follow.

Additionally, although CSAC did not accrue for either SPA revenues and expenses as of
September 30, 1998, and it could have done so based on reasonable estimates of what
probably would have been realized from assignments made prior to that date, such
estimates would have been acceptable and supportable under accrual accounting. Had
SPA revenue and expense estimates been posted to the accounting records, the
Federal Fund balance would have the same fund balance impact as is currently
reflected. Therefore, we do not believe CSAC improperly used the Federal Fund for
SPA activities and we request this finding be removed from the report.

FINDING NO.4 - CSAC's Procedures Delayed Deposits of Federal Payments Into the
Federal Fund

CSAC Response
CSAC is in agreement with this OIG finding and has reimbursed the Federal Fund for the
lost interest income. A transfer of cash to the Federal Fund in the amount of $264,141
was completed on January 13, 2003 covering lost interest earnings from December
1998 through September 2002.


                                           3
OIG Response
ED-0IG/A09-C0013
G. Pilotti
March 6, 2003




New procedures have also been implemented to ensure all deposits to the Federal Fund
are processed within one business day of receipt. These procedures were instituted in
September of 2002, therefore, no additional interest income was lost subsequent to that
date.

FINDING NO.5 - CSAC Did Not Pay Usage Fees to the Federal Fund

CSAC Response
As noted in this finding, CSAC submitted a proposal to purchase these non-liquid assets
to the Department on December 12,2000. CSAC made a good faith offer of $113,500
for the purchase of these assets in lieu of paying a usage fee and has not yet received a
response from the Department concerning this offer. The funds for the purchase of
these assets have been deposited in an interest bearing account (which will accrue to
the Department's benefit) pending the outcome of the discussions between CSAC and
the Department.




                                            4
                         REPORT DISTRIBUTION LIST 

                        CONTROL NO. ED-OIG/A09-C0013

Auditee                                      ED Action Official

Mr. Wally G. Boeck                           Ms. Theresa S. Shaw
Executive Director                           Chief Operating Officer
California Student Aid Commission            Federal Student Aid
10811 International Drive
Rancho Cordova, CA 95741-9026

Other ED Officials/Staff (electronic copy)

Audit Liaison Officer                        Press Secretary
Financial Partners                           Office of Public Affairs
Federal Student Aid
Correspondence Control                       Assistant General Counsel
Office of General Counsel                    Office of the General Counsel
Assistant Secretary                          Deputy Secretary
Office of Legislation and                    Office of the Deputy Secretary
Congressional Affairs
Assistant Secretary                          Chief of Staff
Office of Intergovernmental                  Office of the Secretary
and Interagency Affairs
Director                                     Under Secretary
Financial Improvement and                    Office of the Under Secretary
Post Audit Operations
Office of the Chief Financial Officer

Post Audit Group Supervisor                  Director
Financial Improvement and                    Office of Public Affairs
Post Audit Operations
Office of the Chief Financial Officer
Indirect Cost Group Supervisor               Director, Western Region
Financial Improvement and                    Partner Services, Financial Partners
Post Audit Operations                        Channel
Office of the Chief Financial Officer        Federal Student Aid

Other
Mr. Steve Westly
California State Controller
P.O. Box 942850
Sacramento, CA 94250-5872
